APPENDIX TABLE OF CONTENTS
Opinion of the Seventh Circuit
(June 5, 2019) ..................................................... 1a
Entry of Judgment of Conviction by the United
States District Court for the Northern District
of Indiana, Hammond Division
(January 18, 2018)............................................ 14a
Bench Ruling of the Trial Judge Admitting Exhibit
49.2 (49B) (August 14, 2017) ............................ 28a
Order of the Seventh Circuit Denying Petition for
Rehearing and Rehearing En banc
(July 3, 2019) .................................................... 31a
Superseding Indictment
(April 21, 2017) ................................................. 33a
Government Exhibit 49.2 (49B) ............................. 44a
Government Re-Cross of Agent Hannigan
(August 22, 2017) ............................................. 47a

App.1a
OPINION OF THE SEVENTH CIRCUIT
(JUNE 5, 2019)
(926 F.3d 361)
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
________________________
UNITED STATES OF AMERICA,

Plaintiff‐Appellee,
v.
JOHN BUNCICH,

Defendant‐Appellant.

________________________
No. 18-1216

Appeal from the United States District Court for the
Northern District of Indiana, Hammond Division.
No. 2:16‐cr‐00161‐JTM‐JEM‐1
James T. Moody, Judge.
Before: BAUER, ROVNER, and
BRENNAN, Circuit Judges.
BAUER, Circuit Judge.
John Buncich was the Sheriff of Lake County,
Indiana. He was charged by a grand jury with five
counts of wire fraud and one count of accepting bribes.
He was found guilty on all six counts. For the reasons

App.2a
that follow, we vacate his conviction on Counts I-III,
affirm as to Counts IV-VI, and remand for resentencing.
Background
John Buncich was elected Sheriff of Lake County,
Indiana, and took office on January 1, 2011. He named
Timothy Downs his Chief of Police, the highest ranking
officer under the sheriff. The sheriff was responsible
for providing the county police with towing services.
Buncich created a list of twelve tow operators and
assigned each to a defined territory. Some operators
were assigned to specific police units and some were
responsible for completing certain assignments such
as heavy towing—the towing of semi trucks and other
large vehicles. Buncich was the final decision maker
regarding territories and assignments.
Buncich held an annual campaign fundraiser called
“Summer Fest” and directed Downs and other subordinates to sell tickets to the event. Towing companies
were specifically targeted by the individuals selling
tickets.1 Downs collected the ticket sales revenue and
gave it to Buncich; he testified that he would not have
kept his job if he refused to sell tickets.
The county’s second largest tower was Willie
Szarmach of CSA Towing. Szarmach and CSA contributed to Buncich to ensure a spot on the tow list.
During the campaign Szarmach gave $500 cash to
Buncich through an intermediary and CSA gave the
campaign a check for $2,000, the maximum allowed by
Indiana law. (Szarmach also gave cash above that
1 When Buncich was elected the Lake County Democratic
Chairman in 2014, he also instructed Downs to sell tickets to Democratic party fundraisers.

App.3a
limit.) After the election, Buncich assigned Szarmach
light and heavy towing territories near Gary, Indiana.
CSA was assigned gang unit towing shortly after
Szarmach gave $1,000 cash to Buncich; CSA was also
given towing territory assigned to other companies
whose owners either paid only by check or declined to
buy tickets entirely.
Scott Jurgensen, who owned Samson Relocation &
Towing, was assigned the auto theft towing detail.
About five months after Samson began towing, Downs
approached Jurgensen about making payments. The
two largest towers told Jurgensen they were paying
off Buncich.
On April 8, 2014, Jurgensen met with Downs at
a restaurant. (Unbeknownst to Downs, Jurgensen had
become a confidential informant for the FBI.) Jurgensen
told Downs he would pay “five hundred cash, two
thousand dollar check like I did last time.” He asked
Downs if he could get a rival company’s territory for
another $2,500. Downs told him everything was “fair
game” after the upcoming Democratic primary in May.
Jurgensen gave him a check and cash; Downs said that
he would “still need more after May.”
In June, Jurgensen and Szarmach met with Downs
and expressed an interest in increasing their territory.
They asked if Buncich was planning on “trim[ming]
down the flock.” Downs said “some people that weren’t
very friendly [will] probably bite the dust,” but they
would likely have to wait until after the November
election to get more of the auto detail. Szarmach said
he could provide $10,000 with no paper trail.
The trio met again on October 8, 2014, when
Downs told Jurgensen he was selling Democratic

App.4a
fundraiser tickets. Downs said he did not “like to
pressure anybody into anything” and that a purchase
“don’t gotta be big.” He also said he no longer sold
tickets to S & S, another towing company, because he
believed its owner tried to record him.
The next day Downs informed Jurgensen and
Szarmach that Buncich had decided to take all heavy
towing away from S & S and give it to Szarmach. He
also showed them fundraiser tickets that Buncich was
“real interested in” and they agreed to pay $2,500.
On October 14, 2014, Jurgensen and Szarmach each
gave Downs $500 cash and a check for $2,000 made out
to the Lake County Central Democratic Committee.
When they asked how much the county’s largest tower,
Jerry Kundich had paid, Downs said that Kundich dealt
with Buncich directly.
Buncich sent out an email regarding “CSA’s newly
revised towing district” on June 1, 2015. Two days
later Jurgensen provided Downs with $2,500 cash for
twenty-five tickets to Buncichs’s campaign fundraiser.
He asked if he would be “safe and left alone on the
Lake County tow list” and Downs assured he would be
until Downs himself ran for sheriff. After the meeting
Downs was confronted by FBI agents and agreed to
cooperate with the investigation.
A few days later Downs met with Szarmach and
Kundich who each gave him $2,500 cash. On July 15,
2015, Downs gave $7,500 he had collected from
Jurgensen, Szarmach, and Kundich to Buncich. When
Downs asked Buncich about Jurgensen he responded
that he “don’t have to worry about nothing.”
In March 2016, Buncich met Jurgensen and
Szarmach at the Delta Restaurant. Szarmach desired

App.5a
a newly available towing assignment related to Gary
ordinance enforcement. Buncich said he was removing
one of their competitors, DC Towing, from the list
and that “[y]ou take care of your friends.”
On April 22, 2016, Jurgensen and Szarmach paid
Buncich for the Gary towing assignment. The men
parked their trucks at Delta. After Buncich pulled
into the parking lot Szarmach stepped out of his truck
and left the door open with $3,500 cash resting on
the driver’s seat. He asked Buncich, “Did you see my
new truck?” and Buncich took the envelope off the
seat. Jurgensen, less theatrically, handed Buncich an
envelope with $2,500, which he pocketed. During lunch,
Szarmach asked Buncich for a towing assignment with
the Indiana University Northwest campus police.
Buncich agreed and Szarmach was later informed that
he was on the University tow list.
Jurgensen and Szarmach complained that the
officer in charge of Gary code enforcement, Niko Zairis,
had not called in many tows. Buncich told them they
did not have to pay the county a $50 franchise fee on
tows; Szarmach responded that not paying the fee
would allow for more “sponsorship.”
On July 21, 2016, the trio once again met at Delta
where Jurgensen gave Buncich $2,500 cash. Buncich
asked if they wanted any tickets; Szarmach asked for
25 and Jurgensen declined. Szarmach said he would
also give Buncich a $1,000 check and $2,500 cash at
the fundraiser. Szarmach asked what Buncich could
do for Jurgensen in the New Chicago territory, which
Jurgensen shared with Tow Central. Tow Central was
soon removed from the New Chicago towing list, leaving
the entire territory to Jurgensen. The trio also discussed
replacing Zairis. Buncich addressed the money problem

App.6a
by assigning an officer to spend five days a week
searching for cars to tow in Gary.
On September 2, 2016, Jurgensen met Buncich at
Delta. He gave Buncich $7,500 cash and asked him to
ensure that he remained the sole tow company on the
New Chicago list. Buncich pocketed the envelope and
said, “We’ll make it work. You got it.” Buncich asked
Jurgensen to “do 500” for a fundraiser for Indiana
gubernatorial candidate John Gregg and to not say
anything to Szarmach about the meeting.
On October 20, 2016, Buncich met with Jurgensen
and Szarmach to sell them tickets to a Democratic
fundraiser. When they said they were going to “do
the right thing” Buncich said he was “gonna cut down
the numbers here, the firms.”
In November 2016 the FBI searched Buncich’s
home and office, and Szarmach’s business locations.
Agents found four used and thirteen unused money
bands in denominations of $1,000, $2,000 and $5,000.
Buncich was charged and convicted of five counts of
wire fraud pursuant to 18 U.S.C. § 1343 and § 1346.
Counts I-III relied on “Federal Reserve payroll funds
transfer[s]” dated May 5, 2014, November 17, 2014,
and August 10, 2015. Counts IV and V relied on JP
Morgan Chase wire transfers dated April 8, 2014, and
October 21, 2014. The Chase wire transfers correspond
to the two $2,000 checks paid by Jurgensen. Buncich
was also convicted in Count VI, of bribery in violation
of 18 U.S.C. § 666(a)(1)(B). The indictment stated
that Buncich had deprived Lake County of the $50
franchise fees for the Gary ordinance tows.
Buncich argues on appeal that the government
failed to introduce sufficient evidence to convict on

App.7a
the five wire fraud counts. Buncich also argues that
the district court erred in admitting Exhibit 49.2, a
chart showing $58,100 in cash deposits into Buncich’s
jointly-held bank account. Buncich also appeals admission of the testimony of IRS Agent Gerard Hatagan
in laying a foundation for the chart and testifying
that deposits with no explained source were likely from
criminal activity.
A.

Honest Services Wire Fraud
1. Legal Standard

We will reverse a conviction only where the record,
viewed in the light most favorable to the government,
is “devoid of evidence from which a reasonable jury
could find guilt beyond a reasonable doubt.” United
States v. Durham, 645 F.3d 883, 892 (7th Cir. 2011),
cert. denied, 132 S. Ct. 1537 (2012). To establish wire
fraud under 18 U.S.C. § 1343, the government must
prove the defendant (1) participated in a scheme to
defraud, (2) intended to defraud, and (3) used interstate
wires in furtherance of the fraud. United States v.
Sheneman, 682 F.3d 623, 628 (7th Cir. 2012) citing
United States v. Green, 648 F.3d 569, 577–78 (7th Cir.
2011). An honest services fraud scheme covers only
bribery or kickbacks. United States v Hawkins, 777
F.3d 880, 882 (7th Cir. 2015). To prevail, the government must show that the bribe in question “entail[ed]
a plan to change how the employee or agent does his
job.” Id.
2. Analysis
Both parties agree the evidence presented to the
trial court failed to establish the wire transfers that

App.8a
were the basis of Counts I-III. Buncich’s conviction
on Counts I–III is hereby reversed.
Sufficient evidence, however, supports Buncich’s
wire fraud convictions on Count IV and Count V.
Buncich argues that the wire transfers dated April 8,
2014, and October 21, 2014, were not proven to be
“anything more than a campaign contribution.” On the
contrary, from the record here a rational jury could
conclude that these payments were made to Buncich
in exchange for official acts. “The exchange of an
official act for money violates federal law, no matter
how the recipient uses the cash.” United States v.
Smith, 816 F.3d 479, 480 (7th Cir. 2016).
Jurgensen testified that donating to the Buncich
campaign was necessary to maintain his towing
assignments. After Jurgensen gave the check in April
2014, Buncich assured Downs that Jurgensen “don’t
have to worry about nothing.” Other towing companies
who failed to buy their full allotment of campaign
tickets had territory taken away.
Downs told Jurgensen and Szarmach that Buncich
intended to remove towing companies and that those
who “weren’t very friendly” would “probably bite the
dust.” Szarmach and Jurgensen gave Downs $1,000
cash plus checks including the one described in Count
V. Buncich then moved the heavy tow boundary,
increasing Szarmach’s tows and the profits of both
men.
The jury concluded that the April 2014 check was
a quid pro quo bribe for maintaining Jurgensen’s
territory. It also concluded that the October 2014
check was given in exchange for expanding the heavy
tow boundary for Szarmach. These conclusions were

App.9a
rationally based on the evidence presented, and the
guilty verdict is affirmed as to Counts IV and V.
B.

Rule 404(b) Evidence
1. Legal Standard

Rule 404(b) excludes evidence of other crimes,
wrongs, or acts if the purpose is to show a person’s
propensity to behave in a certain way, but other-act
evidence may be admitted for “another purpose”
including, but not limited to, “proving motive, opportunity, intent, preparation, plan, knowledge, identity,
absence of mistake, or lack of accident.” United States
v. Gomez, 763 F.3d 845, 855 (7th Cir. 2014) (en banc).
The Rule excludes evidence if its relevance to
“another purpose” is established only through the
forbidden propensity inference. Id. at 856. The admission must be supported by some “propensity-free
chain of reasoning.” Id. The district court “should not
just ask whether the proposed other-act evidence is
relevant to a non-propensity purpose but how exactly
the evidence is relevant to that purpose—or more
specifically, how the evidence is relevant without
relying on a propensity inference.” Id.
If the proponent demonstrates that the evidence
is relevant to a legitimate purpose, the district court
must then use Rule 403 to determine “whether the
probative value of the other-act evidence is substantially
outweighed by the risk of unfair prejudice,” taking
into account “the extent to which the non-propensity
fact for which the evidence is offered actually is at
issue in the case.” United States v. Brewer, 915 F.3d
408, 415 (7th Cir. 2019).

App.10a
We review Rule 404(b) decisions for an abuse of
discretion. United States v. Norweathers, 895 F.3d 485,
490 (7th Cir. 2018) (citing United States v. Schmitt,
770 F.3d 524, 532 (7th Cir. 2014)). Under this standard we will defer to the district court “unless no reasonable person could adopt its view.” Id. Even if we
make such a finding, reversal is only warranted “if
the average juror would find the prosecution’s case
significantly less persuasive without the improper evidence.” Id.
2. Analysis
Exhibit 49.2 was a chart showing that $58,100
in cash was deposited into Buncich’s jointly-held
account between April 2014 and September 2016. Agent
Hatagan laid a foundation for the admission of the
exhibit. Hatagan also reviewed Buncich’s income and
concluded that the source of the cash was illegal
activity—Hatagan could not find any legitimate source
for the cash.
The district court initially denied the government’s
motion to admit Exhibit 49.2. The court concluded
that the deposits into Buncich’s account were too
“remote in time, that they can’t possibly bear any
relevance to the alleged bribes” and “the amounts
vary too wildly from the alleged bribes to be probative.”
The court also noted that “the danger of unfair prejudice
to the Defendant and the danger of misleading the
jury and causing them to speculate and concern themselves with matters unrelated to this case, [is] just
too great for me to admit it.” The court then limited
the allowed evidence to those deposits related to the
$26,000 paid by Jurgensen and Szarmach between
April 8, 2014, and September 22, 2016.

App.11a
Buncich took the stand in his own defense. He
denied ever taking bribes and claimed that Downs never
gave him cash from Jurgensen or Szarmach. He also
denied taking the $3,500 off the seat of Szarmach’s
truck. The government filed a new motion to admit
Exhibit 49.2, seeking to introduce the chart to rebut
Buncich’s testimony regarding how he handled payments. The court granted the government’s motion and
admitted Exhibit 49.2 into evidence.
Unexplained wealth evidence is admissible where
(1) the evidence presented creates an inference that
the defendant was involved with the crime; (2) the
unexplained wealth was acquired during the period
in which the crime allegedly occurred; and (3) the
government presents other evidence to support the
charge, including evidence that the income was not
obtained through legitimate means. United States v.
Cardena, 842 F.3d 959, 983 (7th Cir. 2016). Relying
on a series of cases mostly involving large scale drug
conspiracies, the district court concluded that “large
unexplained amounts of cash are indicative of criminal
activity.” See United States v. Hogan, 886 F.2d 1497
(7th Cir. 1989), United States v. Penny, 60 F.3d 1257
(7th Cir. 1995), United States v. Harris, 536 F.3d 798,
811 (7th Cir. 2008). The court concluded that “the
highly probative value of this evidence for purposes of
rebutting the defendant’s self-described practices
regarding his handling of cash is not outweighed by
any danger of unfair prejudice to the defendant.” We
disagree.
The prejudice substantially outweighed the
probative value of the exhibit, particularly when
considered in conjunction with Hatagan’s testimony
that money in the account was derived from illegal

App.12a
sources. The government presented no evidence that
the money in excess of the $26,000 described in the
indictment was an illicit gain from criminal activity.
We required such evidence in Cardena and it is of
particular importance here where the account at issue
is a joint bank account. As the deposits shown in the
chart were well in excess of the amount of bribes
Buncich was charged with, the exhibit and Hatagan’s
testimony were propensity evidence not submitted for
any purpose permitted by Rule 404(b).
The court’s mistake in admitting Exhibit 49.2
and Agent Hatagan’s testimony was, however,
harmless. “The test for harmless error is whether, in
the mind of the average juror, the prosecution’s case
would have been significantly less persuasive had
the improper evidence been excluded.” United States
v. Stewart, 902 F.3d 664, 683 (7th Cir. 2018) (citations
omitted). The other evidence presented to the jury
was extensive. Buncich was videotaped receiving large
cash payments from Jurgensen and Szarmach. He
subsequently increased Szarmach’s heavy towing
territory and directed his personnel to increase the
amount of tows made under the “Gary ordinance
towing” unit for the benefit of Jurgensen and Szarmach.
Campaign records showed that the checks were
deposited into campaign accounts, while the cash
payments were not.
Buncich’s explanations were not persuasive. He
claimed he did not take the cash out of Szarmach’s
truck, but only leaned in to inspect it. Buncich claimed
the $7,500 he received from Jurgensen was actually an
improperly documented campaign loan repayment, but
other loan repayments were meticulously documented. Buncich also claimed that another $2,500

App.13a
was paid by Jurgensen as a campaign donation, but
that the cash payment was deposited in separate
transactions with Jurgensen listed as an “anonymous”
donor. The jury rejected these explanations. Determinations of a witness’s credibility are to be made by the
jury, and “we will not . . . second-guess the jury’s
credibility determinations.” United States v. Lawson,
810 F.3d 1032, 1039 (7th Cir. 2016).
The cash payments documented in Exhibit 49.2
and the testimony of Agent Hatagan would not have
significantly altered the weight given to the rest of
the evidence, nor would it have changed the mind of
the average juror. The other evidence presented was
sufficient to support the jury’s guilty verdict.
Conclusion
The district court’s error in the admission of the
Rule 404(b) evidence was harmless, and the jury’s
guilty verdicts on Counts IV-VI are affirmed. The
jury’s guilty verdicts on Counts I-III are reversed,
and the case is remanded for further action consistent
with this opinion.

App.14a
ENTRY OF JUDGMENT OF CONVICTION BY
THE UNITED STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF INDIANA,
HAMMOND DIVISION
(JANUARY 18, 2018)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF INDIANA
HAMMOND DIVISION
________________________
UNITED STATES OF AMERICA,
v.
JOHN BUNCICH,

Defendant.

________________________

Case Number 2:16-cr-161-001
U.S.M. No. 16724-027
Judgment in a Criminal Case (For Offenses
Committed On or After November 1, 1987)
Before: James T. MOODY,
United States District Court Judge
THE DEFENDANT was found guilty on count(s) 1,
2, 3, 4, 5 and 6 of the Superseding Indictment on
August 24, 2017.
Title, Section & Nature of Offense


18:1343 and 1346 HONEST SERVICES WIRE
FRAUD

App.15a
Date Offense Concluded


October 2016

Count No.


1s-5s

Title, Section & Nature of Offense


18:666(a)(1)(B)
FEDERAL
BRIBERY-BRIBE RECIPIENT

PROGRAM

Date Offense Concluded


September 2016

Count No.


6s

Defendant is sentenced as provided in pages 2
through 9 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.
January 16, 2018
Date of Imposition of Judgment
/s/ James T. Moody
United States District Court
January 18 2018
Date Signed

App.16a
Imprisonment
Accordingly, the defendant is hereby committed
to the custody of the Bureau of Prisons to be imprisoned
for a total term of 188 months. This total term of
imprisonment consists of a term of 188 months on each
of counts 1, 2, 3, 4 and 5 and a term of 120 months on
count 6, all to be served concurrently with each other
to the extent necessary to produce a total term of
imprisonment of 188 months.
The Court makes the following recommendations
to the Bureau of Prisons:
The defendant be placed in FPC, Yankton at
Yankton, South Dakota to be the place of service of
this prison sentence.
The defendant is remanded to the custody of the
United States Marshal.
Return
I have executed this judgment as follows:
Defendant delivered _____ to _____ at _________,
with a certified copy of this judgment.

United States Marshal
By:
Deputy United States Marshal

App.17a
Supervised Release
Upon the defendant’s release from prison by the
Bureau of Prisons, he is to immediately be placed on
supervised release for a total term of 2 years. This
total term consists of a term of 2 years on each of
counts 1, 2, 3, 4, 5 and 6, all of such terms to run
concurrently.
Mandatory Conditions of Supervision
While on supervision, the defendant shall comply
with the following mandatory conditions:
1. You shall not commit another federal, state,
or local crime.
2. You shall not unlawfully possess a controlled
substance.
4. You shall cooperate in the collection of a DNA
sample from you if the collection of such a sample is
authorized under section 3 of the DNA Analysis
Backlog Elimination Act of 2000.
Discretionary Conditions of Supervision
While on supervision, the defendant shall comply
with the following discretionary conditions:
1. Unless directed otherwise by the probation
officer, you must report to the probation office in the
federal judicial district where you reside within 72
hours of your release from imprisonment or commencement of probation. (This condition serves the
statutory sentencing purposes of public protection and
rehabilitation. It also enables the probation officer to
satisfy the statutory requirements to: Be responsible
for the defendant; instruct the defendant as to the

App.18a
conditions of supervision specified by the sentencing
court; keep informed as to the conduct and condition
of the defendant; report the defendant’s conduct and
condition to the sentencing court; and aid the defendant in bringing about improvements in his or her
conduct and condition. It also allows the probation
office to begin the supervision process by requiring
the defendant to notify the probation office that he or
she has been released from the custody of the Bureau
of Prisons or that he or she has commenced the
specified term of probation.)
2. After initially reporting to the probation office
in the federal judicial district where you reside, you
will receive instructions from the court or the
probation officer about how and when you must report
to the probation officer, and you must report to the
probation officer as instructed. (This condition serves
the statutory sentencing purposes of public protection
and rehabilitation. It also enables the probation
officer to: Be responsible for the defendant; instruct
the defendant as to the conditions of supervision
specified by the sentencing court; keep informed as to
the conduct and condition of the defendant; report
the defendant’s conduct and condition to the sentencing
court; and aid the defendant in bringing about
improvements in his or her conduct and condition.)
3. You must answer truthfully the questions the
probation officer asks you related to the conditions of
supervision. This condition does not prevent you from
invoking your Fifth Amendment privilege against selfincrimination. (This condition serves the statutory
sentencing purposes of public protection and rehabilitation. It also enables the probation officer to satisfy
the statutory requirements to: Keep informed as to

App.19a
the conduct and condition of the defendant; report
the defendant’s conduct and condition to the
sentencing court; and aid the defendant in bringing
about improvements in his or her conduct and condition.
The purpose of this condition is to build positive
rapport and facilitate an honest discussion between
the probation officer and the defendant. Accurate and
complete information about the nature and circumstances of the offense and the history and characteristics of the defendant is necessary to implement
effective supervision practices. This condition also
promotes the safety of the probation officer by
notifying him or her of possible safety threats (e.g.,
weapons or other occupants in the defendant’s home
with a history of violence). The probation officer
attempts to develop and maintain a positive relationship with the defendant through transparent communication and the implementation of core correctional
practices (e.g., active listening, development of
problem solving skills, and effective reinforcement).
Finally, this condition allows the probation officer to
implement supervision methods demonstrated by
social science to be effective at achieving positive
outcomes.)
4. You must not knowingly leave this federal
judicial district without first getting permission from
the court or the probation officer. (This condition
serves the statutory sentencing purposes of public
protection and rehabilitation. It also enables the
probation officer to: Be responsible for the defendant;
instruct the defendant as to the conditions of supervision specified by the sentencing court; keep
informed as to the conduct and condition of the
defendant; report the defendant’s conduct and condition

App.20a
to the sentencing court; and aid the defendant in
bringing about improvements in his or her conduct
and condition. It also allows the probation officer to
supervise the defendant by setting boundaries for
travel without permission and by keeping the probation
officer informed of the defendant’s whereabouts. Finally,
it allows the probation officer to implement supervision
methods demonstrated by social science to be effective
at achieving positive outcomes.)
5. You must follow the instructions of the
probation officer designed to make sure you comply
with the conditions of supervision. (This condition
serves the statutory sentencing purposes of public
protection and rehabilitation. It also enables the
probation officer to satisfy the statutory requirements
to: Keep informed as to the conduct and condition of
the defendant; report the defendant’s conduct and
condition to the sentencing court; aid the defendant
in bringing about improvements in his or her conduct
and condition; instruct the defendant as to the
conditions specified by the sentencing court; provide
a written statement of those conditions that is sufficiently clear and specific to serve as a guide for such
supervision as is required; and provide enforceable instructions that reasonably derive from or are necessary to ensure compliance with the court-imposed
conditions of supervision.)
6. You must not own, possess, or have under your
control a firearm, ammunition, destructive device or
dangerous weapon. (This condition serves the statutory
sentencing purpose of public protection. By allowing
the probation officer to supervise the defendant without
risk to safety caused by the possession of weapons, it
enables the probation officer to satisfy the statutory

App.21a
requirements to: Keep informed as to the conduct and
condition of the defendant; report the defendant’s
conduct and condition to the sentencing court; and
aid the defendant in bringing about improvements in
his or her conduct and condition. Finally, it promotes
the public safety and reduces safety risks posed by
the defendant to the community and the probation
officer, and it assists in ensuring that the defendant
is complying with other conditions such as the
prohibition of committing new crimes including the
prohibition of possession of certain weapons for
defendants convicted of certain crimes.)
9. You must live at a place approved by the
probation officer. If you plan to change where you
live or anything about your living arrangements (such
as the people you live with), you must tell the probation
officer at least ten calendar days before the change. If
telling the probation officer in advance is not possible
due to unanticipated circumstances, you must tell
the probation officer within 72 hours after the change.
(This condition serves the statutory sentencing purposes
of public protection and rehabilitation. It also enables
the probation officer to satisfy the statutory requirements to: Keep informed as to the conduct and
condition of the defendant; report the defendant’s
conduct and condition to the sentencing court; and
aid the defendant in bringing about improvements in
his or her conduct and condition. Finally, it allows
the probation officer to be aware of changes in the
defendant’s residence so that the probation officer
can determine whether such a change poses a risk to
the community or impacts the defendant’s risk and
needs. Advance notice of such a change is necessary

App.22a
to allow time to assess the suitability of the new
residence.)
10. You shall refrain from excessive use of
alcohol. This includes “binge drinking” and “heavy
drinking.” “Binge drinking” is defined as a pattern of
drinking that brings blood alcohol concentration
levels to 0.08 grams per deciliter or higher. “Heavy
drinking” is defined as “consuming fifteen drinks or
more per week,” or any use of alcohol that adversely
affects your employment, relationships, or ability to
comply with the conditions of supervision, or which
results in the violation of any local, state, or federal
laws including disorderly intoxication or driving
under the influence. (This condition serves the statutory sentencing purposes of public protection and
rehabilitation. It also allows the probation officer to
satisfy the statutory requirements to: Keep informed
as to the conduct and condition of the defendant;
report the defendant’s conduct and condition to the
sentencing court; and aid the defendant in bringing
about improvements in his or her conduct and
condition.)
11. You must not go to, or be at any place where
you know or reasonably should know controlled
substances are illegally sold, used, distributed, or
administered without first obtaining the permission
of the probation officer. (This condition serves the
statutory sentencing purposes of public protection
and rehabilitation. It also prevents the defendant
from being in an environment where crimes are
occurring, antisocial associates are present, or there
is an increased risk of substance abuse. Finally, it
enables the probation officer to satisfy the statutory
requirements to: Keep informed as to the conduct and

App.23a
condition of the defendant; report the defendant’s
conduct and condition to the sentencing court; and
aid the defendant in bringing about improvements in
his or her conduct and condition.)
12. If you know someone is committing a crime,
or is planning to commit a crime, you must not
knowingly communicate or interact with that person
in any way. If you know someone has been convicted
of a felony, you must not knowingly communicate or
interact with that person in any way without first
getting the permission of the probation officer. (This
condition serves the statutory sentencing purposes of
public protection and rehabilitation. It also enables
the probation officer to satisfy the statutory requirements to: Keep informed as to the conduct and
condition of the defendant; report the defendant’s
conduct and condition to the sentencing court; and
aid the defendant in bringing about improvements in
his or her conduct and condition. Finally, it prevents
antisocial relationships, encourages pro-social relationships, provides the defendant with a justification
to avoid associating with persons convicted of felonies,
and may deter future criminal conduct that may be
jointly undertaken with those persons.)
13. You must allow the probation officer to visit
you at home or at any other reasonable location and
you must permit the confiscation of any contraband
the probation officer observes in plain view. A visit
between the hours of 11:00 p.m. and 7:00 a.m. shall
be conducted only when the probation officer has a
reasonable belief that you have violated a condition
of supervision and that a visit during those hours
would reveal information or contraband that would
not be revealed by a visit at any other time. If you

App.24a
are placed on home detention with location monitoring
equipment and the monitoring service alerts the
probation office that either the monitoring equipment
has malfunctioned or that you are in noncompliance,
you must allow the probation officer to visit you at
any time to ensure that the location monitoring
equipment is functioning properly and that you are
in compliance with your home detention condition.
(This condition serves the statutory sentencing purposes
of public protection and rehabilitation. It also enables
the probation officer to satisfy the statutory requirements to: Keep informed as to the conduct and
condition of the defendant; report the defendant’s
conduct and condition to the sentencing court; and
aid the defendant in bringing about improvements in
his or her conduct and condition. Finally, it allows
the probation officer to implement effective supervision
strategies by making the probation officer aware of
the defendant’s living environment, and standard of
living; by facilitating the development of rapport
with the defendant’s family members, friends, and
other members of the defendant’s support network;
and by providing an environment that may in some
cases be more conducive to open and honest
communication with the probation officer.)
14. You must notify the probation officer within
72 hours of being arrested or questioned by a law
enforcement officer. (This condition serves the statutory sentencing purposes of public protection and
rehabilitation. It also enables the probation officer to
satisfy the statutory requirements to: Keep informed
as to the conduct and condition of the defendant;
report the defendant’s conduct and condition to the
sentencing court; and aid the defendant in bringing

App.25a
about improvements in his or her conduct and
condition. Finally, it allows the probation officer to be
aware of potential criminal activity or involvement in
high-risk situations by the defendant and it assists in
ensuring that the defendant is complying with other
conditions such as the prohibition on committing new
crimes or associating with those involved in criminal
activity.)
15. You must provide the probation officer access
to any requested financial information and authorize
the release of any financial information. The probation
office will share financial information with the U.S.
Attorney’s Office. Also, you must not incur new credit
charges, or open additional lines of credit without the
approval of the probation officer. If the judgment
imposes a fine or restitution, you must pay the fine
or restitution as ordered. You must also notify the
probation officer within 72 hours of any changes in
your economic circumstances that might affect the
ability to pay any court ordered financial obligation.
(This condition enables the probation officer to satisfy
the statutory requirements to: Keep informed as to
the conduct and condition of the defendant; report
the defendant’s conduct and condition to the sentencing
court; and aid the defendant in bringing about
improvements in his or her conduct and condition.
Finally, it may assist the probation officer in setting
the appropriate collection parameters for monetary
conditions; deter and detect economic crimes; verify
and monitor self-employment; or assist a disorganized,
impulsive defendant to gain control of his or her
financial situation.)
33. You must not make any agreement with a law
enforcement agency to act as a special agent or confi-

App.26a
dential informant without first getting the permission of the court. (A confidential informant is a
defendant who engages in the prohibited activity of
associating with persons engaged in criminal activity
for the purpose of furnishing information to or acting
as an agent for a law enforcement or intelligence
agency. Since the inception of the federal criminal
justice system, prosecutors have utilized defendants
supervised in the community as confidential informants.
The activities required of confidential informants,
however, may potentially conflict the conditions
normally imposed by a court. Acting as a confidential
informant is generally inconsistent with the rehabilitative and re-integrative goals of supervision. Such
activities may also pose risks to the probation officer
who supervises the defendant, especially when he or
she has limited knowledge or no knowledge of the
nature of the defendant’s activities. There are rare
occasions, however, when the law enforcement benefits
to the community justify permitting the defendant to
engage in this high-risk activity. In these cases, strict
monitoring by the court and the probation office is
necessary for the safety of the community, the
defendant, and the supervising probation officer.)
Financial Obligations
Defendant must make restitution to the following
named victim in the amount indicated: $800.00—
Lake County, Indiana
This restitution is due and payable immediately
in a lump sum payment of $800.00. If the defendant
does not have the funds or economic resources to pay
full restitution in a lump sum payment, he shall make

App.27a
monthly payments of at least $100.00, to begin within
30 days.
Payment is to be made to the Clerk of this court
for transfer to the named recipient.
The defendant must pay a fine in the amount of
$250,000.00. The fine, including any interest required
by law, is due and payable immediately in a lump sum
payment to the Clerk of this court. If the defendant
does not have the funds or economic resources to pay
the full fine in a lump sum payment, he shall make
monthly payments of at least $500.00, to begin within
30 days.
Forfeiture of the $38,000.00 agreed to by the
defendant to the United States is hereby ordered.
The defendant shall pay to the United States a
total special assessment in the amount of $600.00,
which is due and payable immediately to the Clerk of
this court.
While incarcerated, the defendant may pay his
financial obligation(s) from wages earned by participating in the inmate financial responsibility program.
Nonparticipation may result in a denial of certain
privileges to which he might otherwise be entitled.
The defendant must notify the United States
Attorney for this District within 30 days of any change
of name, residence, mailing address, or material change
in his economic circumstances until these financial
obligation(s) are fully paid.

App.28a
BENCH RULING OF THE TRIAL JUDGE
ADMITTING EXHIBIT 49.2 (49B)
(AUGUST 14, 2017)
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF INDIANA
HAMMOND DIVISION
________________________
UNITED STATES OF AMERICA,
v.
JOHN BUNCICH,

Defendant.

________________________

No. 2:16-cr-00161-JTM-JEM-1
Volume 6 of 14
Before: The Honorable James T. MOODY,
United States District Judge.

[August 14, 2017 Transcript, p. 1029]
THE COURT: And it’s only the cash that this summary
represents?
MR. BENSON: That’s correct. And it represents cash
deposits between those time periods.
THE COURT: Okay. I’ll be back.
(A recess was taken at 9:01 a.m.)
(The following proceedings were had in open court,
resuming at 9:30 a.m.)

App.29a
(A bench conference was had as follows:)
THE COURT: Okay. Counsel, I’ve reviewed the Government’s proposed Exhibit No. 49B regarding cash
deposits, and I just can’t admit it. Some of these
deposits on this document are so remote in time,
that they can’t possibly bear any relevance to
the alleged bribes. Many of the amounts vary too
wildly from your alleged bribes to be probative.
Even if the information on this document was
relevant, the danger of unfair prejudice to the
Defendant and the danger of misleading the jury
and causing them to speculate and concern
themselves with matters unrelated to this case,
it’s just too great for me to admit it. So if you
offer it, it won’t be admitted.
MR. BENSON: I have a question then about the testimony.
THE COURT: Sure.
MR. BENSON: Not this exhibit, but the testimony.
I don’t take the Court’s ruling to preclude Agent
Hatagan from talking about that, on the days of
our payments of cash, as to where that money
went, whether on those dates or within a week,
that that money ended up in the account of the
sheriff or not, either of the accounts.
THE COURT: How does he know that?
MR. BENSON: Because we looked at every bank record.
MR. TRUITT: The cash—
THE COURT: would you keep quiet. Good Lord.
MR. ROGERS: I will.

App.30a
THE COURT: Thank you. You, too.
MR. TRUITT: I will.
THE COURT: You might go sit down.
MR. TRUITT: Okay.
MR. BENSON: They’re arguing that these are campaign contributions. It should have went into his
campaign account if it really was a campaign
contribution.
THE COURT: I understand all that. But how do you
tie any deposit, based on what I looked at, to the
alleged bribes? They’re not on the same date.
They’re days after, weeks after, months after.
MR. BENSON: We can certainly say that the money
that we paid them that they’re claiming are campaign contributions never went into the campaign account. That would certainly be relevant.
[...]

App.31a
ORDER OF THE SEVENTH CIRCUIT DENYING
PETITION FOR REHEARING AND
REHEARING EN BANC
(JULY 3, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
________________________
UNITED STATES OF AMERICA,

Plaintiff-Appellee,
v.
JOHN BUNCICH,

Defendant-Appellant.

________________________
No. 18-1216

Appeal from the United States District Court for the
Northern District of Indiana, Hammond Division.
No. 2:16-cr-00161-JTM-JEM-1, James T. Moody, Judge.
Before: William J. BAUER, Ilana Diamond ROVNER,
and Michael B. BRENNAN, Circuit Judges.
On consideration of defendant-appellant’s petition
for panel rehearing and rehearing en banc filed on
June 19, 2019, in connection with the above-referenced
case, all of the judges on the original panel have voted
to deny the petition for panel rehearing, and no judge
in active service has requested a vote on the petition
for rehearing en banc. It is, therefore, ORDERED

App.32a
that the petition for panel rehearing and petition for
rehearing en banc are DENIED.

App.33a
SUPERSEDING INDICTMENT
(APRIL 21, 2017)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF INDIANA
HAMMOND DIVISION
________________________
UNITED STATES OF AMERICA
v.
JOHN BUNCICH, WILLIAM SZARMACH
________________________
Case No. 2:16-CR-161
18 U.S.C. § 666(a)(l)(B), 18 U.S.C. § 666(a)(2),
18 U.S.C. § 1343, 1346
THE GRAND JURY CHARGES:
General Allegations
At times relevant to this Indictment:
1. John BUNCICH was the elected Sheriff of Lake
County, Indiana. BUNCICH previously served as the
elected Sheriff from 1994 to 2002. As Lake County
Sheriff, BUNCICH had a duty of honest services to
the citizens of Lake County and the State of Indiana.
2. The Lake County Sheriff’s Department was
part of the governmental entity known as Lake County
(County) which was established under the laws of the
State of Indiana. The County operated under a CouncilCommissioner form of government and provided the

App.34a
following services: public safety (police), highways
and streets, health welfare and social services, culture
and recreation, public improvements, planning and
zoning, and general administrative services.
3. During any given one-year period, the County
received in excess of $10,000 in federal funding.
4. “Buncich Boosters” was the campaign committee
BUNCICH used to collect campaign contributions for
BUNCICH.
5. BUNCICH served as treasurer for Buncich
Boosters and therefore was required to sign campaign
finance reports that were filed with the Election
Board.
6. The campaign finance reports contained an
attestation that the information contained in the
report was true and accurate. Additionally, under
Indiana law, a business could only contribute $2000
per year to a political candidate’s campaign.
7. Buncich Boosters and BUNCICH were required
to file accurate and complete campaign finance reports
with the Election Board.
8. Timothy DOWNS was the Chief of Police for the
Sheriff’s Department. As a result, he was second in
charge. BUNCICH appointed DOWNS to that position.
9. William “Willie” SZARMACH operated C.S.A.
Inc., doing business as (d/b/a) CSA Towing, located at
2599 DeKalb Street, Lake Station, Indiana, and also
d/b/a Chase Street Auto Wrecking. CSA Towing was one
of the tow companies on the Lake County Sheriff’s
Department towing list.

App.35a
10. Individual A was the owner of a Northwest
Indiana towing firm assisting the United States to
uncover corruption regarding the awarding of towing
contracts in Northwest Indiana.
11. Pursuant to a County ordinance, the Sheriff
had exclusive control and authority to determine who
provided towing services when officers working for
the Sheriff had the need to tow a vehicle.
12. BUNCICH’s tow list contained between 10
and 12 tow firms at various times. Each tow firm
operated in a specific region of Lake County, and was
obligated by contract to pay the County a $50 fee for
each tow provided at the request of the Sheriff’s officers.
13. The County had an employee handbook that
was adopted by ordinance. The handbook stated that
“political activity on government time is strictly prohibited” and employees could not solicit campaign contributions while “on government time”. The handbook
provided notice that employees could be terminated if
they used county property for political purposes.
COUNTS 1-5
(Honest Services Wire Fraud)
14. From in or about February 2014, and continuing until in or about October 2016, in the Northern
District of Indiana and elsewhere, the defendants,
JOHN BUNCICH,
and
WILLIAM SZARMACH
aided and abetted by each other, devised and
intended to devise a scheme and artifice to defraud
and deprive the citizens of Lake County and the State
of Indiana of their intangible right to the honest

App.36a
services of JOHN BUNCICH, Sheriff of Lake County,
Indiana, and TIMOTHY DOWNS, Chief of Police of the
Lake County, Indiana, Sheriffs Department, through
bribery, and to defraud and deprive the County of
money and property by false and fraudulent pretenses,
representations, promises and the concealment of
material information.
Purpose of Scheme
15. It was a purpose of the scheme and artifice
to defraud for BUNCICH to use his official position
to secretly enrich himself and Buncich Boosters by
soliciting and accepting cash and checks in exchange
for favorable official action, and for SZARMACH to
enrich himself by obtaining favorable official action
for himself and his company through corrupt means.
16. It was a purpose of the scheme and artifice to
defraud for BUNCICH to deprive the County of money,
and enrich himself, by directing towing companies to
not pay a $50 fee to the County as required by law.
17. It was a purpose of the scheme and artifice to
defraud for the Defendants to conceal their unlawful
conduct by agreeing not to tell others about their
illegal activities, filing false campaign finance
reports, structuring campaign contributions in violation
of state law, and filing false towing documents with
the County.
Manner and Means
18. The manner and means by which BUNCICH,
DOWNS, and SZARMACH carried out and concealed
the scheme and artifice to defraud included, but were
not limited to the following:

App.37a
19. BUNCICH used his status as Sheriff of Lake
County and his authority over towing contracts to:
a.

Obtain cash from towing companies on the
Sheriffs tow list.

b.

Obtain campaign contributions from towing
companies on the Sheriffs tow list.

c.

Increase or decrease towing areas for certain
towing companies based on cash payments
or campaign contributions BUNCICH received
from the tow companies on the Sheriffs tow
list.

d.

Allow certain towing firms to remain on the
Sheriffs tow list based upon the purchase of
campaign fundraising tickets.

20. In exchange for cash payments and political
contributions, BUNCICH used his position as Sheriff
of Lake County to authorize SZARMACH and Individual A to provide towing services for ordinance
violations in the City of Gary.
21. On or about April 8, 2014, DOWNS collected
a business check from Individual A in the amount of
$2000, payable to Buncich Boosters, the legal limit a
business could contribute. At the same time, DOWNS
also collected $500 cash for BUNCICH fundraiser
tickets from Individual A. BUNCICH subsequently
obtained the $2000 check and $500 cash.
22. BUNCICH did not list the $500 cash
contribution from Individual A on the campaign finance
report filed for the reporting period.
23. On or about October 21, 2014, DOWNS
collected a $2000 check each from SZARMACH and

App.38a
Individual A. Both checks were payable to a political
organization. SZARMACH and Individual A also each
provided DOWNS with $500 cash. BUNCICH subsequently obtained these two checks and $1000 cash.
24. BUNCICH did not list the $500 cash received
from SZARMACH or Individual A on the campaign
finance report filed for the reporting period.
25. Between on or about June 3 and June 18,
2015, DOWNS obtained $2500 cash ($7500 total) from
SZARMACH, Individual A, and another Lake County
towing firm, allegedly for campaign fundraiser tickets.
26. On or about July 15, 2015, DOWNS delivered
the $7500 cash to BUNCICH at BUNCICH’s office
located in the Lake County Sheriff’s Department.
27. BUNCICH did not list the $2500 cash
contribution from SZARMACH, Individual A, or the
other towing company on the campaign finance report
filed for the reporting period.
28. On or about April 22, 2016, BUNCICH
received $6000 cash from SZARMACH and Individual
A. To obtain SZARMACH’s portion of the cash,
BUNCICH entered SZARMACH’s vehicle and retrieved
$3500 cash from the vehicle’s front seat.
29. Within one week of BUNCICH receiving the
$6000 cash, BUNCICH directed others within the
Sheriff’s Department to enforce ordinance violations
in the City of Gary.
30. After the original officer assigned to ordinance
violations in Gary was injured, and SZARMACH and
Individual A began complaining about a decline in
ordinance towing in Gary, BUNCICH assigned another

App.39a
Lake County patrol officer to enforce ordinance violations in Gary.
31. On or about July 21, 2016, Individual A hand
delivered BUNCICH $2500 cash. BUNCICH placed the
cash in his pocket.
32. Between July 21 and August 9, 2016,
BUNCICH obtained a $1000 check and $2500 cash from
SZARMACH.
33. On or about September 2, 2016, BUNCICH
obtained $7500 cash from Individual A. BUNCICH
placed the money in his right rear pocket.
34. As a result of the payments that occurred in
July and August 2016, BUNCICH provided additional
towing areas to SZARMACH and Individual A, including a larger share of towing involving large semitractor trailers, ordinance towing in the City of Gary,
towing in other Lake County municipalities, and
towing for other entities.
Use of Interstate Wires
35. On or about the dates listed below, in the
Northern District of Indiana, and elsewhere, JOHN
BUNCICH, TIMOTHY DOWNS, and WILLIAM
SZARMACH, aided and abetted by each other, and by
others known and unknown to the grand jury, for the
purpose of executing the above-described scheme and
artifice to defraud and deprive, transmitted and caused
to be transmitted by means of wire communications
in interstate commerce, the following writings, signals,
and sounds as follows:

App.40a

Count

Date

Wire Transmission

1

May 5, 2014

Federal Reserve payroll
funds transfer

2

November 17, 2014

Federal Reserve payroll
funds transfer

3

August 10, 2015

Federal Reserve payroll
funds transfer

4

April 8, 2014

J.P. Morgan Chase wire
transfer

5

October 21, 2014

J.P. Morgan Chase wire
transfer

All in violation of 18 U.S.C. § 1343 and1346.
THE GRAND JURY FURTHER CHARGES:
COUNT 6
(Federal Program Bribery–Bribe Recipient)
1. Paragraphs 1-34 of Counts 1-5 are re-alleged
as if fully set forth herein.
2. From in or about April of 2014 to in or about
September of 2016, in the Northern District of Indiana,
the defendant,
JOHN BUNCICH
the Sheriff of the Lake County Sheriffs Department,
and agent of the Lake County, Indiana Sheriffs
Department, did knowingly and corruptly solicit,
demand, accept, and agree to accept the following cash
payments and campaign contributions;


4/8/14: $2000 check and $500 cash;

App.41a


10/21/14: $4000 in checks for a political organization and $1000 cash;



7/15/15: $7500 cash;



4/22/16: $6000 cash;



7/21/16: $2500 cash;



8/9/16: $1000 check and $2500 cash;



9/2/16: $7500 cash;

intending to be influenced and rewarded in connection
with a transaction and series of transactions of the
Lake County Sheriff’s Department, an agency of Lake
County, Indiana, involving $5,000 or more, that is;
towing contracts between William Szarmach and
Individual A’s towing company, and the Lake County,
Indiana Sheriff’s Department. During any one-year
period relating to each of these payments, Lake County,
Indiana received benefits in excess of $10,000 under
a Federal Program involving a grant, contract, subsidy,
loan, or other form of Federal assistance.
All in violation of Title 18 United States Code,
Section 666(a)(1)(B).
THE GRAND JURY FURTHER CHARGES:
COUNT 7
(Federal Program Bribery—Bribe Payer)
1. Paragraphs 1-34 of Counts 1-5 are re-alleged
as if fully set forth herein.
2. From in or about April of 2014, to in or about
September of 2016, in the Northern District of
Indiana, the defendant,
WILLIAM SZARMACH

App.42a
Did knowingly and corruptly give, offer, and agree to
give something of value;


6/18/15: $2500 cash;



4/22/16: $3500 cash;



8/9/16: $1000 check and $2500 cash;

to John Buncich, intending to influence and reward
John Buncich, Sheriff of the Lake County, Indiana,
Sheriff’s Office, in connection with a transaction and
series of transactions of the Lake County, Indiana’s
Sheriff’s Department, involving $5,000 or more, that
is; towing contracts between William Szarmach and
Individual A’s towing company, and the Lake County,
Indiana Sheriff’s Department. During any one-year
period relating to each of these payments, Lake County,
Indiana, received benefits in excess of $10,000 under
a Federal Program involving a grant, contract, subsidy,
loan, or other form of Federal assistance.
All in violation of Title 18 United States Code,
Section 666(a)(2).
Forfeiture Allegation
1. The allegations contained in Counts 1-7, of
this Indictment are hereby re-alleged and incorporated
by reference for the purpose of alleging forfeiture
pursuant to Title 18, United States Code, Section
981(a)(1)(C) and 28 U.S.C. § 2461.
2. Upon conviction of the offense in violation of
Title 18, United States Code, Sections 666 and 1343,
as set forth in Counts 1-5 of this Indictment, the
defendant, JOHN BUNCICH, shall forfeit to the
United States of America, pursuant to Title 18, United
States Code, Section 981(a)(1)(C) and 28 U.S.C. § 2461,

App.43a
any property, real or personal, which constitutes or is
derived from gross proceeds traceable to the commission
of the offenses,
3. If any of the property described above, as a
result of any act or omission of the defendant[s]:
a.

cannot be located upon the exercise of due
diligence;

b.

has been transferred or sold to, or deposited
with, a third party;

c.

has been placed beyond the jurisdiction of the
court;

d.

has been substantially diminished in value;
or

e.

has been commingled with other property
which cannot be divided without difficulty,

the United States of America shall be entitled to
forfeiture of substitute property pursuant to Title 21,
United States Code, Section 853(p), as incorporated
by Title 18, United States Code, Section 982(b)(1)
and Title 28 United States Code, Section 2461(c).
A TRUE BILL:
/s/ Foreperson
David Capp
United States Attorney
By: /s/ Philip C. Benson
Assistant United States Attorney

App.44a
GOVERNMENT EXHIBIT 49.2 (49B)
BANK ACCOUNT SUMMARY
4-08-2014 To 10-02-2016

Date
04/08/14
04/09/14
04/11/14
04/14/14
04/21/14
05/05/14
06/06/14
06/17/14
07/12/14
07/18/14
07/23/14
08/02/14
08/11/14
08/15/14
10/20/14
10/20/14
10/21/14
11/17/14
12/16/14
12/30/14
02/09/15
03/18/15
03/23/15
04/02/15
04/10/15

Deposits to
Deposits to
JPMC Account JPMC Account
Cash
# 12573234
# 134447986
Payments (John Buncich) (Buncich Boosters)
$500.00
$370.00
$970.00
$5,000.00
$2,000.00
$2,800.00
$1,000.00
$1,000.00
$300.00
$900.00
$500.00
$2,500.00
$500.00
$1,000.00
$50.00
$700.00
$1,000.00
$3,000.00
$2,000.00
$500.00
$500.00
$2,500.00
$3,000.00
$2,500.00
$1,000.00

App.45a
Deposits to
Deposits to
JPMC Account JPMC Account
Cash
# 12573234
# 134447986
Date Payments (John Buncich) (Buncich Boosters)
07/02/15
$1,000.00
07/10/15
$400.00
07/15/15 $7,500.00
07/18/15
$2,800.00
07/24/15
$500.00
09/11/15
$400.00
09/21/15
$800.00
09/25/15
$500.00
12/16/15
$1,200.00
03/21/16
$450.00
04/08/16
$1,600.00
04/16/16
$2,000.00
04/22/16 $6,000.00
04/29/16
$500.00
05/05/16
$1,000.00
05/10/16
$300.00
05/19/16
$200.00
06/15/16
$500.00
06/30/16
$300.00
07/01/16
$2,000.00
07/09/16
$600.00
07/14/16
$200.00
07/15/16
$100.00
07/21/16 $2,500.00
07/21/16
$1,000.00
07/22/16
$1,000.00
07/23/16
$200.00
07/23/16
$500.00
07/28/16
$100.00
07/30/16
$500.00

App.46a
Deposits to
Deposits to
JPMC Account JPMC Account
Cash
# 12573234
# 134447986
Date Payments (John Buncich) (Buncich Boosters)
08/03/16
$1,400.00
08/04/16
$300.00
08/08/16
$1,000.00
08/08/16
$500.00
08/09/16 $1,000.00
08/20/16
$1,000.00
08/29/16
$900.00
08/30/16
$1,000.00
09/01/16
$2,000.00
09/02/16 $7,500.00
09/19/16
$1,000.00
09/20/16
$4,000.00
09/22/16
$1,000.00
Totals
$26,000.00
$58,100.00
$11,240.00

App.47a
GOVERNMENT RE-CROSS OF
AGENT HANNIGAN
(AUGUST 22, 2017)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF INDIANA
HAMMOND DIVISION
________________________
UNITED STATES OF AMERICA,
v.
JOHN BUNCICH,

Defendant.

________________________
No. 2:16-CR-00161
Volume 12 of 14

Before: The Honorable James T. MOODY,
United States District Court.

[August 22, 2017 Transcript, p. 2261]
. . . call.
We also would like to recall Special Agent Jerry
Hatagan. This Court initially ruled that the
deposits into Buncich’s personal account on that
chart were not appropriate because there was no
evidence that anything else had gone on with him.
This defendant since that time, in his case in
chief, has presented evidence from other tow truck
drivers that, in fact, they were not taking bribes.
He himself has also testified that he had no other

App.48a
source of documented income in the time frame
that’s on that chart.
Additionally, if Agent Hatagan were called to
testify, he would testify that he has examined all
of the financial records of this defendant and, in
fact, they corroborate what the defendant said,
that, in fact, he only had three sources of income,
all of which were direct deposits into his account.
This sheriff has taken a position that he never
accepted any other bribes and that he had no other
source of cash income. I have some cases I would
like to give the Court, that unexplained large
amounts of cash in a drug case or bribery case
are evidence of criminal activity.
I totally agree with the Court’s ruling when they
made it before he testified, but he now has placed
his financial status at issue by saying, I never
took money from any other tow truck driver. He
called tow truck drivers to say they never paid
him bribes, yet he has $68,000 of cash deposits
in about a two-and-a-half year period smack dab
in the middle of this Indictment with no explanation for it either from the stand or financially in
the records that were examined and his sources
of income.
We believe it is evidence of criminal activity that
the defendant has opened the door to by the evidence and the testimony they have presented.
And we’re asking for the opportunity to present
that.
THE COURT: Give me the cases. Give me the cases.
MR. BENSON: Okay.

App.49a
THE COURT: Read the title of them into the record.
MR. BENSON: There are a couple cases that deal
with, in the context of bribery, as well as drugs,
that large unexplained amounts of cash are
indicative of criminal activity. Particularly, one
of them is United States v. Penny, P-E-N-N-Y,
60 F.3rd 1257, Seventh Circuit case. Another one
is United States v. Hogan, H-O-G-A-N, 886 F.2nd
1497; again, another Seventh Circuit case.
And within those two cases are cited numerous
other cases for the proposition that large amounts
of cash, unexplained cash, in a crime where cash
is what’s being-what is being distributed or
collected is relevant evidence. And we’re relying
on those cases and the cases cited in those two
cases to now support our position that in light of
the testimony the defense presented that this
evidence is now relevant.
[...]
We’re going to take another 10-minute recess.
Just about 10 minutes. Same instruction I’ve been
giving you applies, so 10 minutes.
(Jury out at 9:24 a.m.)
(A recess was had at 9:24 a.m.)
(The following proceedings were held in open court
beginning at 11:28 a. m., reported as follows:)
THB CLERK: All rise.
THB COURT: Sorry it took so long. We are trying not
to make mistakes.
The government has moved for reconsideration
of this Court’s conditional ruling on the

App.50a
admissibility of evidence regarding cash deposits
into the defendant’s personal bank account for
purposes of rebuttal.
The defendant has argued that the door to
admissibility of this evidence was actually opened
by the government on cross-examination, but I
disagree. The defendant testified at length on
direct examination by his own lawyer about his
handling of cash that he received from various
individuals, who he claims were donors to his
campaign and what he did with it. The government
is entitled to rebut this testimony with its own
evidence presenting its own theory about what
the defendant actually did with cash that passed
through his hands.
Plus, this evidence is also admissible as relevant
evidence under the cases that the government has
provided, including United States v. Hogan, 886
F.2d 1497, Seventh Circuit, 1989, and United
States v. Penny, 60 F.3d 1257, Seventh Circuit,
1995. Additionally, the Court finds persuasive
United States v. Harris, 536 F.3d 798 at 811,
Seventh Circuit, 2008. Under those cases, evidence
of unexplained wealth is probative of the existence
of income derived from criminal activity.
The evidence meets the standard which is set
forth in those cases because, one, the activity
occurred during the period in which the crime
allegedly occurred, or if it isn’t, the government
will limit it to that extent.
Correct?
MR. BENSON: Yes.

App.51a
THE COURT: Second, the evidence creates an inference
that the defendant was involved in the criminal
activity given the temporal relation between the
cash deposits and the alleged criminal activity
and the unusually large quantity involved; and,
three, the government has laid the foundation
via other evidence supporting the charged criminal
activity, including evidence that the income was
not obtained through legitimate means.
Finally, I find that the highly probative value of
this evidence for purposes of rebutting the
defendant’s self-described practices regarding
his handling of cash is not outweighed by any
danger of unfair prejudice to the defendant who
is, in fact, the person who made this issue a
highlight of his testimony in this court, nor is it
excludable for any other reason under Rule 403.
So, Mr. Benson, I will allow you to present this
evidence through your proposed witness so long
as you assure me you are going to stay within
the time frame involved in this Indictment when
you do so.
Can you do that?
MR. BENSON: Yes, Your Honor. We have a chart
that—it is the original chart that was presented
to the Court, and I can have another copy of that
for the Court if they would like to see.
The information we intend to present is the cash
deposits after the payment of what we claim was
the first $500—that would have been April 8,
2014—the date of our last cash payment, the $7500
that the defendant said that he kept. We intend
to show cash deposits of $6,000 through September

App.52a
22, 2016, which would be within 20 days of that
last bribe payment.
THE COURT: Okay. It’s 11:30. Generally the food
from the restaurant that feeds our jury arrives
about now, so what I’ll do is we’ll recess until—
for about an hour so they can have lunch, and
then we’ll commence.
How long will it take for you to direct your
witness?
MR. BENSON: Twenty minutes at most.
THE COURT: On cross how long will it take, . . . .
[...]
MR. ROGERS: Okay. Objection.
(End of bench conference.)
BY MR. BENSON:
Q.

Agent Hatagan, I’ll rephrase my question. Counsel
asked if the $16- or $17,000, at least initially on
this chart, that whether or not you believed it
was illegally obtained, correct?

A.

Yes.

Q.

And you have reviewed the defendant’s tax returns
in this case, correct?

A.

I have.

Q.

And do you have an opinion as to whether the
cash on here comes from a legal or illegal source?

A.

I would say—based on my review of the tax returns
and evidence that’s been presented at trial, I
would say it came from an illegal source.

App.53a
Q.

Is that because this cash of—at least this cash or
the source of it, this cash isn’t identified on the
tax return, to the best of your knowledge after
reviewing those?

A.

Yes.

Q.

And would you expect it if it was income to be on
the tax return?

A.

Yes.

MR. BENSON: I have no further questions.
THE COURT: Recross?
MR. ROGERS: If I may publish 49.2.
[...]

